Case: 19-2431

Document: 57 Page: 1

Date Filed: 09/10/2020

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-2431

UNITED STATES OF AMERICA
v.
JUAN FREDY HERNANDEZ-ZOZAYA,
also known as Jose
also known as Cocho
also known as Pancito,
Appellant

Appeal from the United States District Court
for the District of New Jersey
(No. 2-15-cr-00080-001)
District Judge: Hon. Stanley R. Chesler

Submitted Under Third Circuit L.A.R. 34.1(a)
July 9, 2020
Before: McKEE, BIBAS, and FUENTES, Circuit Judges.
(Filed: September 10, 2020)

OPINION**

** This disposition is not an opinion of the full Court and, pursuant to I.O.P. 5.7, does not
constitute binding precedent.

Case: 19-2431

Document: 57 Page: 2

Date Filed: 09/10/2020

FUENTES, Circuit Judge.
Juan Fredy Hernandez-Zozaya appeals his conviction and sentence for two counts
of conspiracy for his role in managing multiple brothels across New Jersey. Zozaya was
sentenced to 78 months' imprisonment. For the following reasons, we will affirm.
I. Background
In October 2018, Zozaya was charged with one count of conspiring to transport
individuals for purposes of prostitution,' and one count of conspiracy to harbor aliens for
financial gain.2 Zozaya pleaded not guilty.
As alleged in the indictment, Zozaya operated a chain of brothels throughout New
Jersey, alongside his girlfriend, Elizabeth Rojas. The majority of women employed as
prostitutes were undocumented. Zozaya also hired undocumented individuals to work as
house-operators in charge of opening and closing the brothels, taking payment from
customers, and running errands for the prostitutes, and others to serve as lookouts to warn
of police activity.
During the course of a five-day trial, the Government presented the testimony of
three of Zozaya's brothel workers.
One of those workers, Jose Hernandez-Moreno, described how he came to the
United States illegally and started working for Zozaya. Moreno informed Zozaya that he
was undocumented, but Zozaya never asked for "working papers" or processed tax forms

2

18 U.S.C. § 2421; 18 U.S.C. § 371.
8 U.S.C. §§ 1324(a)(1)(A)(iii), (A)(v)(1), (B)(i).
2

Case: 19-2431

Document: 57 Page: 3

Date Filed: 09/10/2020

for Moreno's employment.' Moreno also testified that Zozaya rented eight houses as
brothels under different names; made employment decisions, including pay; found
women to work as prostitutes; transported workers to and from bus and train stations; and
made rounds and daily calls to ensure operations were running smoothly, and to collect
cash payments from customers.
Two former prostitutes also testified and corroborated Moreno's account of
brothel operations. Cristina Suerro Guerrero testified that she began working for Zozaya
sometime after arriving in the United States illegally from the Dominican Republic.
While working for Zozaya, Guerrero lived in Pennsylvania and New York, and traveled
to the brothels in New Jersey. On one occasion, Zozaya transported Guerrero from a
train station in Trenton to one of the brothels. Guerrero also explained that Zozaya knew
she lived out-of-state, and that he never asked for her "working papers" or identification,
never provided her with tax forms, and paid her in cash.
Nashielly Salinas Pacheco testified that after being trafficked across the border
from Mexico, she worked for Zozaya while living in. Queens, New York. On at least one
occasion, she traveled by bus from New York to New Jersey, and one of Zozaya's
workers picked her up from the station and drove her to a brothel. Again, Zozaya never
asked to see Pacheco's working papers, and never gave her any tax forms. Pacheco also
testified that when Zozaya or Roja scheduled her shifts, it was understood that she could
not leave her assigned brothel without permission. She explained that this was because

App. 379.
3

Case: 19-2431

Document: 57 Page: 4

Date Filed: 09/10/2020

"it was a brothel and there are neighbors and what we were doing is not legal," and she
knew if she got caught "[law enforcement] would put me in jail for prostitution and later
deport me."4
The Government also called two law enforcement witnesses who testified about
arrests made and evidence seized during the execution of search warrants at
the brothels. As relevant, Special Agent Christopher latoro from Homeland Security
testified that law enforcement encountered approximately 30 people on the day the
brothels were searched, the majority of whom were illegal aliens.
The jury convicted Zozaya on both counts. At sentencing, the District Court
rejected Zozaya's objection to a six-level specific offense characteristic enhancement
under Guidelines § 2L1.1(b)(2)(B), based on its finding that the offense involved
harboring between 25 to 99 illegal aliens.' The District Court sentenced Zozaya to
concurrent 78-month terms of imprisonment on each count. Zozaya's timely appeal
followed.
II.

Discussion

Zozaya raises four issues on appeal.6 As to Count I, he argues that the evidence at
trial was insufficient to support a conviction. As to Count II, he argues (i) the District
Court's jury instruction defining harboring was erroneous; (ii) there was insufficient

App. 461-62.
5 U.S. Sentencing Guidelines Manual § 2L1.1(b)(2)(B) (U.S. Sentencing Comm'n 2018)
(hereinafter, "U.S.S.G.").
6 The District Court had subject matter jurisdiction pursuant to 18 U.S.C. § 3231. We
have jurisdiction pursuant to 28 U.S.C. § 1291.
4

Case: 19-2431

Document: 57 Page: 5

Date Filed: 09/10/2020

evidence to support a conviction; and (iii) there was insufficient evidence to support a
sentencing enhancement. We address each in turn.
A. Conspiracy to transport women interstate for prostitution
First, Zozaya argues that there was insufficient evidence for the jury to find that he
conspired to transport women across state lines for prostitution. He contends that the
action of transporting prostitutes after they arrived in New Jersey does not involve the
transportation of a person in interstate commerce because the prostitutes arranged and
paid for their own transportation from out-of-state. We disagree.'
Section 2421(a) requires proof that the defendant (1) knowingly transported a
person across state lines; and (2) transported the person with the intent that such person
engage in prostitution.' As the District Court properly instructed the jury, without
objection from defense counsel, "transportation can be found when someone arranges the
transportation of that person or when someone provides a prostitution job and coordinates
and prearranges the date and time on which that person would travel across state lines to
engage in prostitution."9

We exercise plenary review over the District Court's denial of Zozaya's motion for
judgment of acquittal based on sufficiency of the evidence. United States v. Repak, 852
F.3d 230, 250 (3d Cir. 2017). In doing so, "[vi]e review 'the evidence in the light most
favorable to the Government,' afford 'deference to a jury's findings,' and draw 'all
reasonable inferences in favor of the jury verdict. — United States v. Moyer, 674 F.3d
192, 206 (3d Cir. 2012) (quoting United States v. Riley, 621 F.3d 312, 329 (3d Cir.
2010)). As such, the defendant bears an "extremely high" burden. United States v.
Iglesias, 535 F.3d 150, 155 (3d Cir. 2008) (internal quotation marks and citation
omitted).
8 18 U.S.C. § 2421(a).
9 App. 640; see United States v. Mi Sun Cho, 713 F.3d 716, 720 (2d Cir. 2013).
5

Case: 19-2431

Document: 57 Page: 6

Date Filed: 09/10/2020

At trial, Moreno testified that Zozaya hired women as prostitutes, scheduled them
to work at a particular brothel house, and picked them up at the train or bus station to
bring them to a brothel, or instructed one of his workers to do so. Moreno also testified
that almost half of the women came from Queens, New York, which he knew because,
"the first thing [the workers] do is we would always ask where [the women] had come
from" when they picked women up for transport.I 0 Guerrero and Pacheco also testified
that Zozaya knew they lived out-of-state. On one occasion, Zozaya picked Guerrero up
from a train station and brought her to a brothel. Moreover, the Government introduced
into evidence numerous text messages between Zozaya's co-conspirator, Rojas, and
various prostitutes, discussing scheduling and interstate travel plans.
Zozaya relies on Twitchell v. United States for the proposition that it is not a
violation of § 2421 to cause a woman to transport herself across state lines where the
defendant did not participate in the interstate travel." But Twitchell is inapposite. Here,
it is clear that Zozaya caused interstate travel for the purposes of prostitution by
coordinating and prearranging the date and time on which women would travel interstate
to work for him. And any intrastate travel he provided was not "separate" where he was

App. 342-43.
11 330 F.2d 759, 759-60 (9th Cir. 1964). In Twitchell, the Ninth Circuit reversed
defendant's conviction under § 2421 because the Government admitted defendant could
not be "held to have counselled, commanded, or induced such transportation." Id. at 759
(internal quotation marks omitted). From this admission, the court determined that there
was no evidence defendant participated in the actual interstate travel, although he latter
participated in a trip that "was separate, and entirely intrastate." Id. at 760.
10

6

Case: 19-2431

Document: 57 Page: 7

Date Filed: 09/10/2020

merely the second leg in an otherwise interstate trip taken for one purpose: to work as a
prostitute in his brothels.12
Viewed in the light most favorable to the Government, the evidence permitted a
rational jury to conclude that Zozaya conspired with others to cause the transportation of
women across state lines to engage in prostitution.
B. Jury instructions on harboring
Second, Zozaya argues that the District Court's jury instruction defining harboring
constituted plain error. We disagree.' 3
A conviction for conspiracy to harbor illegal aliens under 8 U.S.C.
§ 1324(a)(1)(A)(iii) requires proof of conduct that tends "'substantially to facilitate an
alien's remaining in the United States illegally and to prevent government authorities
from detecting [the alien's] unlawful presence.'' la
In instructing the jury as to Count II, the District Court first gave the elements that
constitute the crime of harboring an illegal alien. The elements relevant here are:
"[s]econd, the defendant concealed, harbored or shielded from detection the alien, in
violation of law;" and "fourth, that the defendant's actions in harboring, concealing or

Id. at 760.
Because this objection was unpreserved, we exercise plain error review over the
District Court's jury instructions. Fed. R. Crim. P. 52(b); United States v. Olano, 507
U.S. 725, 732 (1993). Reversal is only warranted if we conclude (1) an error was
committed, (2) it was plain, and (3) it affected the outcome of the proceedings. Id. at
733-34.
14 United States v. Silveus, 542 F.3d 993, 1003 (3d Cir. 2008) (quoting United States v.
Ozcelik, 527 F.3d 88, 99 (3d Cir. 2008)).
12

13

7

Case: 19-2431

Document: 57 Page: 8

Date Filed: 09/10/2020

shielding substantially facilitated the alien's ability to remain in the United States[1"15
The District Court then went on to define and clarify the terms used in the elements of the
crime. Specifically, the District Court instructed that:
To 'harbor' means to simply give or afford shelter or refuge. To 'shield from
detection' means to act in a way that prevents the authorities from learning
of the fact that an alien is in the United States illegally.
You need not find the defendant acted secretly or that the harboring of the
alien was clandestine, as long as you find on the basis of all the evidence that
the defendant harbored an illegal alien in a way that tended substantially to
facilitate the alien remaining in the United States illegally or otherwise
shielded the alien's illegal status or location from detection by authorities. 16
Zozaya contends that these instructions were lacking because they did not require the
Government "to prove beyond a reasonable doubt conduct that both (a) substantially
facilitates an alien's remaining in the United States illegally and (b) prevents government
authorities from detecting the alien's unlawful presence."'
Zozaya fails to account for the fact that when reviewing jury instructions, we
"look at the instructions as a whole, not piecemeal."18 Viewing the instructions all
together, we find that there was no plain error. The District Court's instructions on both
the concealment (element two) and substantial facilitation (element four) elements of
harboring conform to our precedent.19 Based on these instructions, the jury would have

App. 647.
App. 648.
Zozaya Br. 28-29 (emphasis in original).
18 United States v. Greenspan, 923 F.3d 138, 147 (3d Cir. 2019); see Cupp v. Naughten,
414 U.S. 141, 146-47 (1973) (stating the "well established proposition that a single
instruction to a jury may not be judged in artificial isolation, but must be viewed in the
context of the overall charge.").
19 App. 648.
15

16

8

Case: 19-2431

Document: 57 Page: 9

Date Filed: 09/10/2020

been aware that they needed to find both that Zozaya's conduct tended to substantially
facilitate an alien's remaining in the United States, and prevent government detection.'
In any case, even if there was plain error, Zozaya's substantial rights were not affected
because, as discussed in greater detail below, there was sufficient evidence for the jury to
conclude that Zozaya conspired to harbor aliens.
C. Conspiracy to harbor aliens
Third, Zozaya argues that there was insufficient evidence for the jury to find that
he conspired to harbor aliens. Specifically, he claims that the evidence was insufficient
to show that he agreed to engage in conduct that would reduce the likelihood the
Government would discover the illegal aliens he employed. We disagree.
Three former workers of Zozaya testified that Zozaya knew they were
undocumented, and he paid them in cash without filing any tax paperwork.
Moreno testified that Zozaya rented each brothel house in a different name, and

See United States v. George, 779 F.3d 113, 118-20 (2d Cir. 2015) (finding that
although the jury instruction stated that "harboring means simply to afford shelter to,"
and that the jury need not find that the defendant "acted secretly or that the harboring of
the alien was clandestine," "when viewed as a whole," the instruction adequately
conveyed the requisite concealment aspect of harboring where it instructed the jury that it
must find defendant's actions "substantially facilitated the alien's ability to remain in the
United States illegally" (internal quotation marks and alterations omitted)); see also
United States v. Vargas-Cordon, 733 F.3d 366, 382 (2d Cir. 2013) ("While the court
stated that [h]arboring simply means to shelter, to afford shelter to, the entire charge
taken as a whole conveyed to the jury that simply providing shelter was insufficient . . .
the very next sentence properly instructed the jury that to find that [defendant] harbored
[the alien], it must find based on the evidence in this case that the Government proved
that the defendant . . . afforded shelter to [the alien] in a way intended to substantially
facilitate her remaining here illegally." (internal quotation marks and citations removed,
emphasis in original)).
9

Case: 19-2431

Document: 57 Page: 10

Date Filed: 09/10/2020

Pacheco testified that she was not allowed to leave the brothel without permission,
so as not to raise suspicion around the activity in the house. There was also
testimony that Zozaya employed people as lookouts to "monitor" for police
activity near the brothels.' The jury could infer from this evidence that Zozaya
worked to "minimize[] the illegal employees' exposure to the general public" in
order to avoid detection from law enforcement.22 As such, the jury's verdict was
not "so insupportable as to fall below the threshold of bare rationality."23
D. Sentencing enhancement
Finally, Zozaya argues that there was insufficient evidence to support a six-level
sentencing enhancement for harboring 25 to 99 illegal aliens.' We disagree.25
At sentencing, the District Court rejected Zozaya's objection, finding by a
preponderance of the evidence that "there were over 25 illegal aliens harbored by the
defendant."26 The District Court's finding was supported by Special Agent latoro's
testimony that law enforcement encountered "[a]pproximately 30" people on the day
search warrants were executed on the brothels, and the Government proffered that all but

21 App. 377.

United States v. McClellan, 794 F.3d 743, 751 (7th Cir. 2015); see also United States v.
Chon, 713 F.3d 812, 819 (5th Cir. 2013) (holding that renting hotel rooms and providing
services for illegal aliens so that they could avoid leaving their rooms was "strong
circumstantial evidence that [defendant] was aware of the scope and objectives of the
conspiracy" to violate § 1324).
23 Coleman v. Johnson, 566 U.S. 650, 656 (2012).
24 U.S.S.G. § 2L1.1(b)(2)(B).
25 We exercise plenary review over the District Court's interpretation and application of
the Sentencing Guidelines and review its factual findings for clear error. United States v.
Cespedes, 663 F.3d 685, 688 (3d Cir. 2011).
26 App. 672-73.
22

10

Case: 19-2431

Document: 57 Page: 11

Date Filed: 09/10/2020

two of those people were in the United States illegally.27 Zozaya has not claimed that the
agent's testimony was unreliable, nor has he provided any evidence to rebut the number
of aliens involved. And as discussed, there was sufficient evidence for the jury to find
that Zozaya conspired to harbor aliens, as opposed to them being "simply employed at
the brothels."28
Accordingly, it was not clearly erroneous for the District Court to conclude that
Zozaya's offense involved the harboring of 25 to 99 illegal aliens.
HI. Conclusion
For the foregoing reasons, we will affirm the District Court's judgment.

27
28

App. 201.
Zozaya Br. 26.
11

